           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    IMPLEMENTATION OF PHASE I
   OF THE MARTINEZ SETTLEMENT
           AGREEMENT

 February 2011       A-01-10-10160




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             SOCIAL SECURITY
MEMORANDUM

Date:      February 25, 2011                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Implementation of Phase I of the Martinez Settlement Agreement (A-01-10-10160)


           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) implementation
           of Phase I of the Martinez Settlement agreement.

           BACKGROUND
           The Social Security Act prohibits the payment of Old-Age, Survivors and Disability
           Insurance (OASDI) benefits and Supplemental Security Income (SSI) payments to a
           beneficiary who is “fleeing” to avoid prosecution, custody, or confinement for a felony,
           unless the Agency determines that good cause exists for paying such benefits. 1

           The Martinez class action lawsuit 2 challenged SSA’s fugitive felon policy of basing
           payment suspensions solely on the existence of an outstanding felony arrest warrant
           rather than developing information to ensure that the individual was “fleeing.” As a
           result, the parties reached a settlement in September 2009 in which SSA changed its
           policy to suspend OASDI benefits and deny SSI payments only if the outstanding felony
           warrant for the individual was for one of three National Crime Information Center
           Uniform Offense Classification Codes:
                  Escape (Offense Code 4901);
                  Flight to avoid prosecution, confinement, etc. (Offense Code 4902); and
                  Flight-Escape (Offense Code 4999).


           1
            The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
           (B)(iii)-(iv), as amended by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203
           § 203(a), March 2, 2004, and the Social Security Act §1611(e)(4), 42 U.S.C. § 1382(e)(4), as amended by
           § 203(b) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(b), March 2, 2004.
           2
            Martinez v. Astrue, No. 08-4735 CW, a case in the U.S. District Court for the Northern District of
           California.
Page 2 - The Commissioner


SSA is fulfilling the terms of the settlement agreement in four phases. The Agency
implemented Phase I in December 2009, which affected about 30,000 Martinez class
members whose OASDI benefits SSA staff suspended after 2006. For these
individuals, SSA reinstated benefits and paid any benefits withheld as of the first month
of suspension. Additionally, the Agency repaid any sums collected on an overpayment
if these individuals were assessed an overpayment based on SSA’s previous fugitive
felon policy and another basis for suspending payment did not apply. For additional
background information, see Appendix B.

METHODOLOGY
To accomplish our review, we obtained a file of 30,156 Martinez cases from SSA’s
Fugitive Felon Control File where the Agency applied Martinez Settlement relief as of
May 2010. We randomly selected 275 cases for detailed review. (See Appendix C for
details about our scope and methodology.)

RESULTS OF REVIEW
Despite the complexities of these cases, SSA provided appropriate settlement relief to
about 91 percent of the Phase I class members. 3 Specifically, based on our sample, we
estimate SSA provided settlement relief totaling approximately $321.6 million in Phase I
of the Martinez Settlement implementation. SSA appropriately provided relief to about
27,524 (91 percent) OASDI class members. However, approximately

       1,864 (6 percent) received about $14.3 million more settlement relief than was
        due, and
       768 (3 percent) did not receive about $828,600 in settlement relief that was due. 4

Overall, about 2,632 individuals did not receive the accurate amount of settlement relief
due them. The net result was that SSA provided about $13.5 million more in settlement
relief than was due.




3
  The District Court approved the Martinez Settlement in September 2009, and the Agency began
processing Phase I settlement cases in December 2009—3 months after approval of the settlement. For
purposes of this review, we use the term “settlement relief” to indicate how SSA compensated these
individuals under the Martinez Settlement. For detailed information regarding how SSA provided
settlement relief, see the section of this report titled “Complexity of Processing Martinez Cases.”
4
 To be conservative, we did not include in our estimate the amount for one case, which was $34,653.
This amount was significantly more than the other cases in our sample.
Page 3 - The Commissioner


SAMPLE RESULTS

We sampled 275 individuals whose SSA records indicated they were Martinez
Settlement class members. In August 2010, we referred cases from our sample to
SSA. In October 2010, the Agency notified us that it took corrective action on these
cases where necessary.

We found

      251 (91 percent) were processed correctly and received settlement relief totaling
       $2,531,831;
      17 (6 percent) received $130,858 more relief than they were due; and
      7 (3 percent) did not receive $42,210 that they were due.


                  Chart 1: SSA’s Implementation of the Settlement


                                                                   Too Much Relief
                                                                      Provided
  Processed                                                             6%
   Correctly
     91%




                                                                   Too Little Relief
                                                                      Provided
                                                                         3%



COMPLEXITY OF PROCESSING MARTINEZ CASES

Because of the complexities of the Martinez Settlement cases, the Agency is
implementing the Settlement in four phases. In general, for Phase I cases, SSA
reinstated OASDI benefits and paid any previously withheld benefits as of the first
month of fugitive felon suspension or denial. Additionally, had SSA recovered any
overpayments related to SSA’s prior fugitive policy, the Agency paid these funds to the
beneficiary as part of the Settlement agreement.
Page 4 - The Commissioner


To determine whether an individual was due Settlement relief in Phase I, SSA had to do
the following.

   Determine whether the warrant (or warrants since some class members had multiple
    warrants) was subject to the Martinez settlement agreement.
   Determine whether the Agency had suspended the individual’s benefits because of
    the warrant, and if so, calculate the benefits overpaid and withheld because of SSA’s
    previous fugitive felon policy.
   Determine whether a higher priority suspension event (for example, prisoner
    suspension) superseded the fugitive felon suspension period. 5 (If there were a
    higher priority suspension, settlement relief would not apply for that period.)
   If benefits were overpaid, determine whether any or all of the fugitive felon
    overpayments were waived or deleted—to ensure the individual was not paid these
    funds a second time in a settlement payment.
   Once SSA calculated the settlement relief amount, the Agency had to determine
    whether there were any outstanding overpayments (unrelated to the prior fugitive
    policy), past-due Medicare premiums, or past-due garnishments, to which SSA
    would apply the settlement relief before issuing the individual the remaining balance.
   Before issuing a settlement payment, the Agency had to determine whether the
    individual was in current payment status and determine the appropriate relief.

In Phase I Martinez Settlement cases, the Agency issued settlement relief by

   paying the individual benefits withheld or recovered because of the fugitive felon
    warrant;
   applying the settlement amount to recover any outstanding overpayment(s);
   using the settlement amount to collect past-due Medicare premiums;
   paying garnishments (for example, child support) that were past due on behalf of the
    individual scheduled to receive settlement relief;
   posting a pending underpayment (if the individual was not in a current payment
    status); or
   any combination of the above.




5
 For a priority list of events that cause OASDI terminations/suspensions or deduction of benefits, see
SSA, Programs Operations Manual System (POMS), GN 02602.025.
Page 5 - The Commissioner


CASES PROCESSED CORRECTLY

SSA correctly processed 251 (91 percent) of our 275 sample cases and provided these
individuals settlement relief totaling about $2.5 million.

For example, for one individual, SSA suspended benefit payments under the prior
fugitive felon policy in June 2007, which resulted in a $6,670 overpayment from January
through May 2007. Additionally, because of the suspension, the Agency withheld
$4,002 of benefits from June through August 2007. As of December 2009, this
individual had repaid $2,700 of the $6,670 overpayment—leaving a balance of $3,970.
As a result of the Martinez Settlement, SSA considered the benefits withheld from June
through August 2007 due and no longer considered this individual overpaid from
January through May 2007. Therefore, the Agency

   removed the overpayment balance of $3,970—funds the beneficiary had already
    received and
   issued the beneficiary a payment for $6,702—the amount the Agency had withheld
    ($4,002) plus the amount the beneficiary had repaid ($2,700).

In another case, SSA suspended benefit payments from May 2007 through
September 2008 and posted a $1,370 overpayment to the record under its prior fugitive
felon policy. As a result of the Martinez Settlement, SSA removed the overpayment
balance of $1,370 and calculated that $10,435 in benefits was withheld under the prior
policy. However, because this individual was in prison, the Agency could not issue a
payment for the withheld benefits because of the No Social Security Benefits for
Prisoners Act of 2009. 6 SSA posted a pending $10,435 underpayment to the
individual’s record. When this individual is released from prison, SSA can issue the
settlement payment.

CASES PROVIDED MORE RELIEF THAN DUE

We found 17 individuals (6 percent) in our sample received $130,858 more in
settlement relief than they were due. Table 1 summarizes the reasons SSA provided
too much settlement relief.




6
 Pub. L. No. 111-115. For additional information regarding the No Social Security Benefits for Prisoners
Act of 2009, see Appendix B of this report and/or our May 2010 report, Martinez Settlement Benefits
Withheld Under the No Social Security Benefits for Prisoners Act (A-01-10-20112).
Page 6 - The Commissioner


      Table 1: Reasons SSA Provided                  Amount of         Number of
                                                                                        Percent
         Too Much Settlement Relief                   Relief             Cases
    Relief provided for deleted
                                                         $45,735            10           59%
    overpayment balance
    System limitation on overpayment
                                                         $68,100             4           23%
    recovery
    Incorrect computation                                   $992             2           12%
    Open probation/parole warrant during
                                                         $16,031             1           6%
    period of Martinez warrant 7
    Total                                              $130,858             17          100%

Relief Provided for Deleted Overpayment Balance—Case Example

In 2008, SSA learned that a beneficiary had an outstanding felony warrant from March
through May 2007. Therefore, SSA posted a $5,160 overpayment for this period. As of
February 2009, the individual had repaid $1,759 of his overpayment to SSA, and the
Agency had deleted the remaining balance of $3,401.

As a result of the Martinez Settlement, SSA no longer considered this individual
overpaid for the period March through May 2007. In December 2009, the Agency
processed settlement relief in the form of a payment to the individual for $5,160.
However, SSA should have only issued a $1,759 settlement payment because the
remaining overpayment amount had been deleted.

We referred this case to SSA in August 2010, and the Agency took corrective action by
posting an overpayment of $3,401 to the individual’s record on September 22, 2010.
SSA planned to start collecting this overpayment in December 2010. Essentially, SSA
had paid this individual $3,401 twice—once under the prior fugitive policy and again as
a settlement relief payment.

System Limitation on Overpayment Recovery—Case Example

In 2008, under its prior fugitive felon policy, SSA suspended benefit payments for one
individual and posted a $24,808 overpayment for August 2006 through
September 2008. Additionally, SSA withheld $1,945 in benefit payments for October
and November 2008.

The beneficiary began repaying the overpayment by having the Agency withhold
$20 from her monthly benefit payment. As of December 2009, the individual had repaid
$60. However, because of SSA systems limitations, the overpayment balance on the
record reflected only the $9,620 that could be collected through the year 2049. SSA




7
    The Martinez settlement agreement does not apply to parole or probation warrants.
Page 7 - The Commissioner


staff members stated they established manual controls for the $15,128 no longer shown
on the record in the balance amount. 8

As a result of the Martinez Settlement, SSA no longer considered this individual
overpaid $24,808 and considered the withheld benefits, totaling $1,945, due. To
implement the settlement agreement, SSA relied largely on automated processes. We
found in this case the overpayment balance reflected only $9,620 of the actual $24,808,
and the system treated the $15,128 difference as if it had been withheld from the
beneficiary or already been repaid to SSA. 9 It therefore issued a payment for
$17,133—the $1,945 that had never been paid, plus $60 that had been repaid, plus the
$15,128 not reflected in the overpayment balance. However, the individual had not
repaid the $15,128. Therefore, when SSA paid the settlement relief, it resulted in an
overpayment of $15,128.

We referred this case to SSA in August 2010. In September 2010, the Agency took
corrective action by posting an overpayment of $15,128 to the individual’s record. As of
February 2011, SSA was collecting this overpayment from her current benefit payment.

CASES PROVIDED LESS RELIEF THAN DUE

Seven individuals (3 percent) in our sample did not receive $42,210 in settlement relief
they were due. All seven of these cases were complex and involved SSA reviewing
several years of information to determine the settlement relief due.

For example, one individual had two warrants, issued in May and October 2006. Per
SSA’s records, the individual was to receive settlement relief based on the warrant
issued in May 2006, which ended in June 2007. From May 2006 through June 2007,
the individual was in fugitive felon suspension, which resulted in $6,125 in benefits
overpaid and withheld, and this was the amount of settlement relief due. 10 However, in
January 2010, the individual received settlement relief of $5,264, which was
$861 ($6,125 - $5,264 = $861) less than was due. The Agency withheld $861 of the
settlement for October and November 2006 because this was the period of fugitive
suspension for the warrant issued in October 2006; however, per the Martinez
Settlement, the individual was due settlement relief for those 2 months.

We referred this case to SSA in August 2010. In September 2010, the Agency took
corrective action and provided this individual the additional $861 in settlement relief that
was due.


8
  At the time SSA took this action, the beneficiary had repaid $60 in monthly installments. Thus, the
$24,808 overpayment less the $60 repaid equaled $24,748, less the $9,620 that could be collected
through the year 2049 at the installment rate, equaled $15,128.
9
    There were three additional cases in our sample that had the year 2049 systems limitation.
10
  The $6,125 comprised a $3,458 overpayment from May through December 2006 and $2,667 of
benefits the Agency withheld because of the fugitive felon warrant.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Overall, we estimate that SSA provided settlement relief of approximately $321.6 million
in Phase I of the Martinez Settlement implementation. Additionally, we estimate that
about 2,632 individuals did not receive the settlement relief due them, resulting in the
Agency providing approximately $13.5 million more relief than due.

We recommend SSA:

1. Review and update its policies and procedures, where necessary, to ensure
   settlement relief is properly paid.

2. Correct the cases in the population that were incorrectly paid settlement relief. 11

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix D.




                                                 Patrick P. O’Carroll, Jr.




11
     On February 3, 2011, we provided SSA 2,078 cases that need to be reviewed and possibly corrected.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Additional Background

APPENDIX C – Scope, Methodology, and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                            Appendix B

Additional Background
The Martinez Settlement Agreement

On September 24, 2009, the U.S. District Court of Northern California approved a
nation-wide class action settlement agreement in the Martinez v. Astrue lawsuit
involving the Social Security Administration’s (SSA) fugitive felon program. The
Martinez Settlement changed the types of felony arrest warrants SSA uses to prohibit
payment of Old-Age, Survivors and Disability Insurance (OASDI) benefits and
Supplemental Security Income (SSI) payments. The settlement does not apply to
persons whose benefits the Agency denied or stopped because of an arrest warrant for
a parole or probation violation. Specifically, the agreement allows SSA to stop benefit
payments to fugitive felons in only three Offense Code categories: 1
       Escape (4901);
       Flight to avoid prosecution, confinement, etc. (4902); and
       Flight-Escape (4999).

For class members
       whose benefits were suspended or denied or who had an administrative appeal
        determination on or after January 1, 2007 or
       who had an administrative appeal challenging the suspension of their benefits
        pending on August 11, 2008,

SSA will reinstate benefits and pay any benefits withheld as of the first month of
suspension. The Agency will also repay any sums collected on an overpayment if these
class members had been overpaid benefits based on SSA’s previous policy. For class
members who receive SSI, the Agency will first redetermine the individual’s non-medical
eligibility criteria under its usual policies.

For class members
       whose benefits were suspended or denied between January 1, 2000 and
        December 31, 2006 and who did not have administrative appeals pending on
        August 11, 2008, SSA will stop collecting overpayments and remove any
        remaining overpayment balances imposed based on the previous policy.
       who were not receiving benefits as of April 1, 2009 because of the application of
        the previous fugitive felon policy, a new application for benefits may be
        necessary.

1
 The three Offense Codes specified—4901, 4902, and 4999—are National Crime Information Center
Uniform Offense Classification Codes.


                                               B-1
Class members whose benefits were suspended or denied before January 1, 2000 can
reapply for benefits under the new policy.

The Agency is fulfilling the terms of the settlement agreement as follows.
     Phase I: Individuals whose OASDI benefits were suspended after 2006. The
      Agency refers to this as Title II Post-2006 Relief.
     Phase II: Individuals whose SSI payments were suspended or denied after 2006.
      The Agency refers to this as Title XVI Post-2006 Relief.
     Phase III: Individuals whose OASDI benefits were suspended between
      January 1, 2005 and December 31, 2006. The Agency refers to this as Title II
      Pre-2007 Relief.
     Phase IV: Individuals whose SSI payments were suspended or denied between
      January 1, 2000 and December 31, 2006. The Agency refers to this as Title XVI
      Pre-2007 Relief.

Also, SSA plans additional work concerning settlement-related matters not addressed in
the first four phases.

No Social Security Benefits for Prisoners Act of 2009

On December 15, 2009, the No Social Security Benefits for Prisoners Act of
2009 became law. 2 Under this law, SSA will not pay retroactive benefits to individuals
whose monthly OASDI benefits or SSI payments are suspended because they are a
prisoner, fugitive felon (under the terms of the Martinez Settlement), or probation or
parole violator. This includes Martinez Settlement relief. Once the individual is no
longer a prisoner, fugitive felon, or probation or parole violator, SSA can pay retroactive
benefits.

The new law does not limit SSA’s authority to otherwise withhold, adjust, or recover
benefits. 3 For individuals receiving SSI, the Agency will first re-examine non-medical
eligibility before reinstating payments.




2
    Pub. L. No. 111-115.
3
    Pub. L. No. 111-115 § 2, 42 U.S.C. 404(a)(1)(B)(iii), and 42 U.S.C. 1383(b)(7)(B).


                                                      B-2
                                                                      Appendix C

Scope, Methodology, and Sample Results
To accomplish our objective, we:
      Researched the Social Security Administration’s (SSA) regulations, policies, and
       procedures related to the Martinez Settlement agreement and withholding of
       retroactive benefit payments under the No Social Security Benefits to Prisoners
       Act of 2009.
      Reviewed the Office of the Inspector General report, The Social Security
       Administration’s Fugitive Felon Program and the Martinez Settlement Agreement
       (A-01-09-29177), October 2009.

In May 2010, we identified 30,156 potential Phase I class members—that is, individuals
whose Old-Age, Survivors and Disability Insurance (OASDI) benefits had been
suspended under the fugitive felon program after 2006 and who had at least one
unsatisfied warrant for which benefits would no longer be suspended under the Martinez
Settlement agreement. We analyzed a random sample of 275 of these cases to
    determine whether these individuals were properly included in the
     Phase I population,
    assess the appropriateness of any related reinstatement, and
    assess the appropriateness of payment of retroactive benefits.

We conducted our audit between May and October 2010 in Boston, Massachusetts.
We tested the data we obtained and determined them to be sufficiently reliable to meet
our objective. The entities reviewed were SSA’s Office of Systems under the Deputy
Commissioner for Systems; SSA’s field offices, processing centers, and program
service centers under the Deputy Commissioner for Operations; and the Office of
Income Security Programs under the Deputy Commissioner for Retirement and
Disability Policy.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                          C-1
SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

Table C-1: Population and sample size
Population Size                                                                             30,156
Sample Size                                                                                     275

Table C-2: Individuals who had Martinez Settlement                                   Number of
processed correctly                                                                 Beneficiaries
Sample Results                                                                                 251
Point Estimate                                                                              27,524
Projection Lower Limit                                                                      26,526
Projection Upper Limit                                                                      28,316
Note: All projections are at the 90-percent confidence level.

Table C-3: Individuals who received settlement relief                                   Dollars
Sample Results                                                                        $2,932,387
Point Estimate                                                                      $321,560,209
Projection Lower Limit                                                              $278,458,029
Projection Upper Limit                                                              $364,662,390
Note: All projections are at the 90-percent confidence level.

Table C-4: Individuals who received more                         Number of
                                                                                        Dollars
settlement relief than they were due                            Beneficiaries
Sample Results                                                           17              $130,858
Point Estimate                                                        1,864          $14,349,620
Projection Lower Limit                                                1,202           $5,227,713
Projection Upper Limit                                                2,748          $23,471,526
Note: All projections are at the 90-percent confidence level.

Table C-5: Individuals who received less                         Number of
                                                                                       Dollars 1
settlement relief than they were due                            Beneficiaries
Sample Results                                                            7                 $7,557
Point Estimate                                                          768              $828,643
Projection Lower Limit                                                  364              $257,222
Projection Upper Limit                                                1,422            $1,400,064
Note: All projections are at the 90-percent confidence level.


1
 To be conservative, we did not include the amount for one case, which was $34,653, in our estimate.
This amount was significantly more than the other cases. However, for our estimate of the number of
beneficiaries who received less settlement relief than they were due, we included this individual.


                                                    C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      February 4, 2011                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Implementation of Phase I of the Martinez
           Settlement Agreement” (A-01-10-10160)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Chris Molander, at (410) 965-7401.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“IMPLEMENTATON OF PHASE I OF THE MARTINEZ SETTLEMENT
AGREEMENT” (A-01-10-10160)

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations.

Recommendation 1

Review and update its policies and procedures, where necessary, to ensure settlement relief is
properly paid.

Response

We agree. We have routinely updated Phase I policies and procedures since first issuing them in
December 2009. We will continue that practice.

Recommendation 2

Correct the cases in the population that were incorrectly paid settlement relief.

Response

We agree. We will take appropriate corrective action on all cases referred for correction.




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Frank Salamone, Senior Auditor

   David York, Program Analyst

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-10160.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
